No.
In The
Supreme Court of the United States

KISSINGER ST. FLEUR,
Petitioner,
v.
UNITED STATES,
Respondent.

PROOF OF SERVICE

I, Charles M. Greene, do swear or declare that on this date, November 9,
2020, as required by Supreme Court Rule 29 I have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF
CERTIORARI on each party to the above proceeding or that party's counsel, and on
every other person required to be served, by delivery to a third-party commercial
carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Solicitor General of the United States
Department of Justice
950 Pennsylvania Ave., N.W.
Room 5616
Washington, DC 20530-0001

Linda Julin McNamara, Esq.
United States Attorney's Office
400 N. Tampa Street, Ste. 3200
Tampa, FL 33602
Counsel for Respondent
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 9, 2020.
/s/ Charles M. Greene
Charles M. Greene, Esq.
Counsel of Record for Petitioner

